@OCKLE

Legal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850
No.
CHARLES DANIEL MAYE,
Petitioner,
Vv.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court

Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 4006 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 24th day of July, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska : LE ,
My Commission Expires Nov 24, 2020 a

 

 

Notary Public

38393
